TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Review of the August 2010
                    Small Business/Self-Employed Division’s
                      Conference in Anaheim, California



                                           May 31, 2013

                              Reference Number: 2013-10-037




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


REVIEW OF THE AUGUST 2010                            searching for the most cost-effective location as
SMALL BUSINESS/SELF-EMPLOYED                         required. Instead, SB/SE Division management
DIVISION’S CONFERENCE IN                             approached two non-governmental event
ANAHEIM, CALIFORNIA                                  planners to identify a suitable off-site location for
                                                     the conference. These two planners were not
                                                     under contract with the IRS; hence they had no
Highlights                                           incentive to negotiate a favorable room rate for
                                                     the IRS. Instead, the three hotels paid the event
                                                     planners an estimated $133,000 commission
Final Report issued on May 31, 2013                  based on the cost of rooms paid for by the IRS.
Highlights of Reference Number: 2013-10-037          The IRS may have been able to negotiate a
to the Internal Revenue Service Chief Financial      lower lodging rate to reduce conference
Officer.                                             expenses if it had not used non-governmental
                                                     event planners and eliminated some of the
IMPACT ON TAXPAYERS                                  negotiated concessions provided by the hotels
Excessive spending by Federal agencies on            (e.g., daily continental breakfast, a welcome
management conferences has been highlighted          reception with two drink coupons for all
by recent Inspectors General reports and the         attendees, a significant number of suite
subject of congressional hearings. Effective         upgrades). TIGTA also identified other
cost management is especially important given        questionable expenses related to the conference
the current economic environment and focus on        including planning trips, outside speakers, video
efficient spending. TIGTA identified several         productions, an information corridor, and
ways the IRS could enhance controls over             promotional items and gifts for IRS employees.
conference spending.                                 WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA recommended that the IRS verify that
This audit was initiated to identify the IRS’s       costs are being tracked for recent conferences;
spending on conferences during Fiscal                track conference attendance; ensure that
Years 2010 through 2012. Our primary focus           applicable IRS personnel are used to plan future
was on the August 2010 Small Business/               conferences; develop procedures outlining the
Self-Employed (SB/SE) Division’s All Managers        appropriate use of non-governmental event
Conference in Anaheim, California. This              planners for IRS conferences; establish
conference was selected because TIGTA                procedures related to planning trips, information
received an allegation of excessive spending         corridors, videos, and other technology for future
and it was the most expensive conference             conferences; evaluate whether hotel upgrades
during this period.                                  should be used for future conferences; and
                                                     ensure that taxable travel is identified and
WHAT TIGTA FOUND                                     Forms W-2, Wage and Tax Statement, are
                                                     issued to applicable employees.
The SB/SE Division conducted a conference for
an estimated 2,609 SB/SE Division executives         In their response to the report, IRS management
and managers at a reported cost of $4.1 million      agreed with all of TIGTA’s recommendations.
at the Marriott, Hilton, and Sheraton hotels         The IRS plans to issue additional guidance
located in Anaheim, California. Procedures at        related to conference spending and attendance,
the time of the conference did not require IRS       tracking Continuing Professional Education
management to track and report actual                credits, the use of event planners, soliciting hotel
conference costs. As a result, TIGTA could not       room upgrades, video productions, planning
validate the conference cost reported by the         trips, and the conference approval process. The
IRS.                                                 IRS also stated that it plans to issue Forms W-2
                                                     to all applicable employees.
TIGTA determined that the IRS did not use
available internal personnel to assist in
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 31, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Review of the August 2010 Small Business/
                             Self-Employed Division’s Conference in Anaheim, California
                             (Audit # 201310024)

 This report presents the results of our review to identify the Internal Revenue Service’s (IRS)
 spending on conferences during Fiscal Years 2010 through 2012 and review selected conferences
 to determine whether the conferences were properly approved and the expenditures were
 appropriate. Our review focused on the Small Business and Self-Employed Division’s All
 Managers Continuing Professional Education Conference in Anaheim, California, from
 August 24 through 26, 2010, and addresses the Major Management Challenge of Achieving
 Program Efficiencies and Cost Savings.
 This audit focused on the Anaheim conference because it was the most expensive IRS
 conference held during the three-year period (Fiscal Years 2010 through 2012) and because the
 Treasury Inspector General for Tax Administration (TIGTA) received an allegation of excessive
 spending related to this conference.
 In its response, the IRS indicated that the use of event planners, the receipt of room upgrades,
 and the welcome reception and breakfast provided by the hotels did not entail the use of any
 additional Government resources. TIGTA disagrees with this statement. As noted in this report,
 TIGTA believes that the costs for the conference could have been reduced if the IRS had not
 requested the numerous concessions from the Anaheim hotels and had instead negotiated for a
 lower room rate. The requests for proposal sent by the event planners to the hotels on behalf of
 the IRS specifically requested numerous upgraded rooms and other concessions but specified
 that per diem, the most that the IRS could pay for each room, would be paid. Further,
 Department of the Treasury guidance implemented in November 2012 places limitations on the
 use of event planners because their use can increase costs. As noted in our report, event planners
                                     Review of the August 2010
                              Small Business/Self-Employed Division’s
                                Conference in Anaheim, California


received an estimated $133,000 from the hotels, which was based on the cost of rooms paid for
by the IRS.
Management’s complete response to the draft report is included as Appendix XI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. If you have any questions, please contact me or Gregory D. Kutz,
Assistant Inspector General for Audit (Management Services and Exempt Organizations).




                                                                                                2
                                                 Review of the August 2010
                                           Small Business/Self-Employed Division’s
                                             Conference in Anaheim, California




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Anaheim Conference Was Approved by Both
          Internal Revenue Service Deputy Commissioners ....................................... Page 4
          Conference Costs Were Primarily Paid Through
          Unused Funding Originally Intended for Hiring
          Enforcement Employees ............................................................................... Page 4
          Conference Costs Were Not Adequately Tracked
          and Monitored ............................................................................................... Page 5
                    Recommendations 1 and 2: .............................................. Page 6

          The Process Used to Select Anaheim As the
          Conference Site Did Not Follow Established
          Guidelines ..................................................................................................... Page 7
                    Recommendation 3:........................................................ Page 9

                    Recommendation 4: ....................................................... Page 10

          Planning Trips Were Made for the Conference ............................................ Page 10
                    Recommendation 5:........................................................ Page 11

          Fifteen Outside Speakers Were Contracted for
          the Conference .............................................................................................. Page 11
          Star Trek Parody and “SB/SE Shuffle” Videos
          Were Produced for the Conference ............................................................... Page 14
                    Recommendation 6:........................................................ Page 15

          A Substantial Number of Internal Revenue Service
          Employees Received Hotel Upgrades ........................................................... Page 15
                    Recommendation 7:........................................................ Page 17
                                         Review of the August 2010
                                   Small Business/Self-Employed Division’s
                                     Conference in Anaheim, California



     Local Employees Were Granted Authorization to
     Stay at the Conference Hotels ....................................................................... Page 17
              Recommendation 8:........................................................ Page 18

     Several Meals and a Welcome Reception Were
     Provided During the Conference .................................................................. Page 18
     Other Expenses Related to the Conference ................................................... Page 19
              Recommendation 9:........................................................ Page 21


Appendices
     Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
     Appendix II – Major Contributors to This Report ........................................ Page 24
     Appendix III – Report Distribution List ....................................................... Page 25
     Appendix IV – Internal Revenue Service Conferences Held
     During Fiscal Years 2010 Through 2012...................................................... Page 26
     Appendix V – Legend for Abbreviations Listed in Appendix IV ................ Page 39
     Appendix VI – Internal Revenue Service Conferences Held
     During Fiscal Years 2010 Through 2012 Ranked by
     Highest Average Cost Per Event................................................................... Page 41
     Appendix VII – Summary of Costs for the Anaheim Conference ................ Page 42
     Appendix VIII – Guest Speakers Procured for the Anaheim Conference .... Page 43
     Appendix IX – Anaheim Conference Agenda .............................................. Page 44
     Appendix X – Anaheim Conference Workshops on August 25, 2010 ......... Page 46
     Appendix XI – Management’s Response to the Draft Report ...................... Page 48
               Review of the August 2010
         Small Business/Self-Employed Division’s
           Conference in Anaheim, California




              Abbreviations

CDS     Centralized Delivery Services
CPE     Continuing Professional Education
FY      Fiscal Year
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
SB/SE   Small Business/Self-Employed
TAS     Taxpayer Advocate Service
                                           Review of the August 2010
                                     Small Business/Self-Employed Division’s
                                       Conference in Anaheim, California




                                             Background

In April 2012, the Treasury Inspector General for Tax Administration received an allegation
about an August 2010 Internal Revenue Service (IRS) conference held in Anaheim, California,
(hereafter referred to as the Anaheim conference or the conference) that may have involved
excessive spending. The Small Business/Self-Employed (SB/SE) Division held the conference,
entitled “Leading into the Future,” for its entire management staff. According to information
provided by the IRS, this conference was provided to 2,609 employees at an estimated cost of
approximately $4.1 million.
We requested a complete list of conferences1 held by the IRS during Fiscal Years (FY) 2010
through 2012. Based on information provided to us, the IRS held 225 conferences during this
period for a total estimated cost of approximately $49 million. See Appendices IV and VI for
more information on these conferences. Figure 1 shows the top three conferences held at a
single location, based on estimated cost per the IRS.
                Figure 1: Top Three Conferences Based on Estimated Cost
                 Held at a Single Location During FYs 2010 Through 2012

    Operating                                                                                             Estimated
     Division       Name/Purpose of Event               Date         Location          Participants         Cost
      SB/SE        SB/SE Division All Managers
                                                       August         Anaheim,
                     Continuing Professional                                               2,609          $4,133,183
                                                        2010          California
                        Education (CPE)
  Taxpayer
                      TAS Technical Training           August       Philadelphia,
  Advocate                                                                                 2,113          $2,933,042
                           Symposium                    2010        Pennsylvania
Service (TAS)
      SB/SE         SB/SE Division Collection          March         San Diego,
                                                                                            721           $1,198,397
                        Leadership CPE                 2010          California
Source: Chief Financial Officer, November 2012.2



1
  For this audit, we defined conferences as an IRS-sponsored meeting, retreat, seminar, symposium, training, or
other event that involved travel for 50 or more attendees. In addition, a conference is defined in the Federal Travel
Regulations as, “…[a] meeting, retreat, seminar, symposium or event that involves attendee travel. The term
‘conference’ also applies to training activities that are considered to be conferences under 5 CFR 410.404.”
See 41 CFR 300-3.1.
2
  The Treasury Inspector General for Tax Administration has only reviewed the SB/SE Division Leadership
Conference described in this report and has not performed any detailed analysis of the other conferences held during
FYs 2010 through 2012. Although we obtained a list of 225 conferences, we focused on the Anaheim conference
based on an allegation received.

                                                                                                            Page 1
                                         Review of the August 2010
                                   Small Business/Self-Employed Division’s
                                     Conference in Anaheim, California



As a result of the allegation related to the August 2010 Anaheim conference and the fact that it
was the most expensive conference reported by the IRS during FYs 2010 through 2012, we
focused our audit work on assessing the IRS’s spending related to this conference.
In the current economic environment, Congress and the President have focused on ways to
reduce unnecessary, inefficient, and wasteful spending. In June 2011, the President launched a
Governmentwide “Campaign to Cut Waste” to target ineffective and wasteful spending. On
November 9, 2011, the President signed Executive Order 13589, Promoting Efficient Spending,
reinforcing the Administration’s commitment to cutting waste in Federal Government spending
and identifying opportunities to promote efficient and effective spending. As part of this
Executive Order, agencies were directed to make all appropriate efforts to conduct business and
host or sponsor conferences in space controlled by the Federal Government, wherever
practicable and cost effective. Excessive spending by Federal agencies on management
conferences has been highlighted by recent Inspectors General reports3 and has been the subject
of congressional hearings.
Beginning in February 2011, the IRS issued a number of policy guidance documents to minimize
spending on travel and conferences. This guidance related to eliminating all face-to-face
managers’ meetings unless approved by the Deputy Commissioners as well as limiting training
to only mission-critical technical training delivered remotely whenever possible (February 2011);
discontinuing the purchase of promotional items unless approved by the Deputy Commissioners
(August 2011); further reducing all travel and training by 10 percent (November 2011); and
establishing new procedures requiring Deputy Commissioner approval of conference-related
activities (December 2011). On March 2, 2012, the IRS Chief Financial Officer issued
consolidated guidance for events hosted by the IRS including, but not limited to, conferences,
training, and meetings. The guidance includes pertinent information on approvals, event
planning, refreshments, site selection, procurement, promotional items, and recordkeeping
requirements.
In May 2012, the Office of Management and Budget4 issued guidelines which stipulate that
agencies may not incur net expenses greater than $500,000 for a single conference and agencies
must publicly report (on their official website) all conference expenses in excess of $100,000.
Department of the Treasury guidance implemented in November 2012 further requires that any
conference hosted or sponsored by Department of the Treasury bureaus costing $250,000 or
more be approved by the Treasury Secretary, and that those requiring the use of event planners


3
  U.S. General Services Administration Office of Inspector General, Management Deficiency Report: General
Services Administration Public Buildings Service 2010 Western Regions Conference (Apr. 2, 2012), and Veterans
Administration Office of Inspector General, Department of Veterans Affairs Administrative Investigation of the
FY 2011 Human Resources Conferences in Orlando, Florida (Sept. 30, 2012).
4
  Office of Management and Budget, Memorandum M12-12, Promoting Efficient Spending to Support Agency
Operations (May 2012).

                                                                                                        Page 2
                                     Review of the August 2010
                               Small Business/Self-Employed Division’s
                                 Conference in Anaheim, California



(for assistance in site selection) be approved in advance by the Department of the Treasury’s
Office of the Assistant Secretary for Management and Chief Financial Officer.
This review was performed in coordination with the Chief Financial Office of Internal Control
and SB/SE Division’s Strategy and Finance office in Washington, D.C., during the period
October 2012 through March 2013. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective. We
did not evaluate the appropriateness or relevance of the training provided at the Anaheim
conference. It was beyond the scope of this review to assess the merits and effectiveness of the
conference agenda. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                                    Review of the August 2010
                              Small Business/Self-Employed Division’s
                                Conference in Anaheim, California




                                Results of Review

The Anaheim Conference Was Approved by Both Internal Revenue
Service Deputy Commissioners
SB/SE Division management requested and received approval for the Anaheim conference as
required based on IRS procedures in place at that time. Specifically, we determined that the
Deputy Commissioners, Operations Support and Services and Enforcement, both approved the
request for the Anaheim conference on April 12, 2010. At the time of approval, the estimated
cost was approximately $4.3 million. The request approved by the Deputy Commissioners was
for a “Small Business/Self-Employed All Managers CPE;” however, SB/SE Division
management informed us that no CPE credits were provided to any attendees for the specific
conference sessions. IRS management stated that all attendees were credited with 24 hours of
leadership training that was recorded in the IRS’s training system. However, SB/SE Division
management also stated that attendees were not required to document their attendance at any
conference session.
Procedures at that time required Deputy Commissioner approval for any conference exceeding
an estimated cost of $100,000. In December 2011, the IRS issued guidance for events hosted by
the IRS including, but not limited to, conferences, training, and meetings. The guidance includes
pertinent information on approvals, event planning, refreshments, site selection, procurement,
promotional items, and recordkeeping requirements. These procedures now require Deputy
Commissioner approval for any event that meets or exceeds a $20,000 threshold; any event
involving the purchase of light refreshments, food, or mementos; or any event held at
non-Government facilities. In addition, in May 2012, the Office of Management and Budget
issued new guidelines which stipulate that agencies may not incur net expenses greater than
$500,000 for a single conference and that agencies must publicly report (on their official
website) all conference expenses in excess of $100,000. Department of the Treasury guidance
implemented in November 2012 now requires any conference hosted or sponsored by
Department of the Treasury bureaus costing $250,000 or more be approved by the Treasury
Secretary.

Conference Costs Were Primarily Paid Through Unused Funding
Originally Intended for Hiring Enforcement Employees
According to SB/SE Division management, the SB/SE Division was allocated $132.7 million in
the IRS’s FY 2010 budget to hire 1,315 full-time employees. SB/SE Division management
stated that the resources were provided for several initiatives, such as improving the reporting

                                                                                          Page 4
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



compliance of taxpayers, addressing nonfiling/underpayment and collection coverage, reducing
the Tax Gap5 attributable to globalization, and expanding document matching for small business
taxpayers. IRS management stated the $132.7 million enforcement hiring funds were provided
for both salary and training of any new hires and indicated that approximately $18 million of this
funding was available for training purposes.
According to SB/SE Division management, 1,516 hires were made during FY 2010. The
majority of these were front-line positions such as revenue officers, revenue agents, and tax
compliance officers. However, because the new hires were not on board for the full year, IRS
management stated that there were unused funds obtained for the hiring initiative that would
have lapsed at the end of FY 2010.
SB/SE Division management transferred $3.2 million from the hiring initiative to help fund the
conference. They also indicated that they used training funds to cover the additional conference
expenses. SB/SE Division management indicated that IRS business units have the authority to
reprogram funds to meet their program needs. We did not identify any restrictions preventing
the IRS from using these available funds to pay for the conference.

Conference Costs Were Not Adequately Tracked and Monitored
When initially requesting the approval of the Deputy Commissioners, SB/SE Division
management estimated the Anaheim conference’s total cost as $4,297,285. As shown in
Appendix VII, the IRS indicated that the final cost for the conference was $4,133,183.
While IRS management provided documentation showing the total final costs at $4.1 million, we
could not obtain reasonable assurance that this amount represents a full and accurate accounting
of the conference costs. The IRS was unable to provide documentation to support all costs
associated with the conference. Although IRS management established an internal tracking code
for employees to charge their conference travel, we determined that this code was not always
used as required. For example, we identified 188 employees who attended the conference but
did not use the code on their travel voucher (representing approximately $245,000). As a result,
we cannot validate that the “final” conference cost of $4.1 million reported by the IRS and
detailed in Appendix VII is accurate.
In addition, we requested supporting documentation related to the $50,187 expended for
“videos.” However, IRS management stated that this was an estimated cost and could not
provide detail on how this cost was estimated. In addition, IRS management could not provide
any supporting documentation detailing how this money was spent.



5
  The Tax Gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that
is paid voluntarily and on time.

                                                                                                          Page 5
                                              Review of the August 2010
                                        Small Business/Self-Employed Division’s
                                          Conference in Anaheim, California



Further, IRS management originally estimated that 2,609 employees were expected to attend the
conference. SB/SE Division management stated that the cost for all employee travel was
$3,752,000.6 However, we reviewed travel voucher documentation and identified that
2,547 vouchers were filed by IRS employees claiming approximately $3,845,000 associated with
the conference.
At the time the Anaheim conference was planned and conducted, the IRS did not have any
guidelines requiring management to track and report the actual costs incurred for conferences. In
March 2012, the IRS Chief Financial Officer issued a memorandum establishing additional
controls for event-related spending. This guidance now requires each office conducting a
conference to establish a methodology to identify, track, and review various conference events,
including costs associated with planning and attending the conference. In addition, each office is
required to maintain documentation related to conference planning and attendance to allow for
subsequent audit review and management inquiry.
We did not assess whether these new requirements have been implemented and are operating
effectively to track actual costs related to conferences held after the March 2012 memorandum
was issued. However, we believe IRS management should verify that adequate information is
now being tracked and maintained by offices to accurately account for actual conference costs.

Recommendations
The Chief Financial Officer should:
Recommendation 1: For conferences held after issuance of the March 2012 procedures,
verify that appropriate information is being tracked and maintained by IRS offices to accurately
account for actual conference costs and attendance.
           Management’s Response: The IRS agreed with this recommendation. The Chief
           Financial Officer will update the December 27, 2012, Interim Guidance Memorandum,
           Reissued Interim Guidance on the Approval Process for Event-Related Spending, to
           include a requirement for the Chief Financial Officer to review, on a rotating basis,
           documentation maintained by the business units for conference and event-related
           spending.
Recommendation 2: Implement a policy to determine whether specific sessions at
conferences qualify for CPE credits.
           Management’s Response: The IRS agreed with this recommendation. The IRS
           Human Capital Office will strengthen the policy and guidance for determining when a
           course may be eligible for Certified Public Accountant CPE certification credit in Internal


6
    This total excludes travel for planning trips conducted prior to the conference.

                                                                                              Page 6
                                     Review of the August 2010
                               Small Business/Self-Employed Division’s
                                 Conference in Anaheim, California



       Revenue Manual (IRM) 6.410.1.3.3.3, Credit for Continuing Professional Education for
       Certified Public Accountants.

The Process Used to Select Anaheim As the Conference Site Did Not
Follow Established Guidelines
The process followed by IRS management to identify Anaheim as the conference location did
not follow established procedures and may not have resulted in the most cost-effective site being
identified for the conference. Specifically, IRS management did not use available internal
personnel to assist in searching for the most cost-effective location as required. According to the
IRS, SB/SE Division management gave six employees awards totaling $6,000 for their work on
the Anaheim conference, including two employees who each received $2,000 who were
primarily responsible for coordinating the conference planning.

IRS personnel responsible for identifying conference space were not used
Within the IRS, the Centralized Delivery Services (CDS) function was established to assist IRS
management in planning training events. The CDS function is responsible for coordinating
conference space for IRS events, including locating off-site training space. The CDS function
works with the Office of Procurement to identify the most cost-effective off-site facilities when
needed. CDS function personnel are responsible for researching at least three alternate off-site
facilities and preparing a cost comparison.
However, SB/SE Division management did not use CDS function personnel to select Anaheim as
the conference location. Instead, they relied on non-governmental event planners who were not
under contract with the IRS and who were selected based on past relationships with the IRS to
identify possible off-site locations. SB/SE Division management stated that their business
practice was to complete their own research for all conferences, including the preparation of all
cost comparisons and required forms.
IRS guidelines require that Government facilities must be used for training activities, meetings,
and conferences when available and adequate to meet training objectives. Non-Government
facilities should be used only when Government space is not available or Government space does
not meet training requirements due to special circumstances. IRS guidelines indicate that
non-Government facilities should be avoided except where it can be demonstrated that the
anticipated benefits will more than offset any additional direct expenditures and will not give the
general public an appearance of unnecessary spending by the IRS.
When off-site facilities are used, CDS function personnel are required to provide documentation
that establishes that Government property was considered but was determined not available and
explains why any available Government space does not meet the business needs of the
conference. Although the CDS function was not used in the site selection process,


                                                                                           Page 7
                                              Review of the August 2010
                                        Small Business/Self-Employed Division’s
                                          Conference in Anaheim, California



SB/SE Division management stated that they believed that SB/SE Division personnel prepared
this documentation. However, they were unable to locate the documentation.
Letters of Intent are used by the IRS to state the IRS’s intent to hold off-site training at hotels
and secure the hotels’ cooperation in reserving space until funding has been approved. Although
CDS or Procurement function personnel are normally required to sign Letters of Intent, a
General Schedule-14 SB/SE Division revenue officer in charge of conference planning signed
the Letters of Intent with the three hotels.7 The Letters of Intent detailed the potential number of
rooms to be blocked by the hotels as well as the services the hotels agreed to provide in exchange
for the IRS’s business. These services included continental breakfast each day for all attendees,
a welcome reception with two drink coupons for all attendees, and room upgrades. In addition,
the Letters of Intent stated that the three hotels would pay a 5 percent commission to each of the
two event planners based on the number of rooms and lodging rate paid by the IRS.

Non-governmental event planners representing the IRS were not under contract
and were paid $133,000 by the conference hotels
Instead of using the required IRS personnel, SB/SE Division management contacted
two non-governmental event planners to identify a suitable off-site location for the conference.
SB/SE Division management stated that these two event planners were selected based on prior
work performed for the IRS. Although operating on behalf of the IRS, the IRS had no
contractual agreement with these two individuals. IRS procedures currently require background
investigations and tax compliance checks be performed on contractors doing business with the
IRS. However, because the IRS had no contractual agreement with these event planners, the IRS
did not perform background or tax compliance checks on these two individuals.
Despite having no contractual agreement with the IRS, these event planners were responsible for
issuing Requests for Proposals to hotels and receiving the hotel responses (one event planner was
responsible for the eastern part of the United States and the other for the western part of the
United States). SB/SE Division management advised us that the Requests for Proposals were
analyzed by the event planners and SB/SE Division personnel.
Based on review of the responses received from the Requests for Proposals, IRS management
informed us that three possible locations for the conference were identified: Anaheim,
California; San Francisco, California; and Dallas, Texas. However, no documentation was
available that details how these three locations were ultimately identified from the responses
received. Ultimately, Anaheim was selected for the conference.
SB/SE Division management did not enter into a signed contract with the two event planners nor
did they directly pay them for their services. Instead, the event planners were each paid a
5 percent commission directly by the hotels based on the number of rooms used by the IRS for


7
    The revenue officer mentioned in this section is the same revenue officer mentioned in other sections of the report.

                                                                                                               Page 8
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



the conference. Based on information provided by SB/SE Division management, we estimate
the event planners were paid approximately $133,000 by the hotels (or approximately $66,500
each).
The use of the planners in this process increased the possibility that the site selection did not
result in the lowest cost to the Government. For example, the event planners had no incentive to
negotiate a lower Government room rate at any conference location because they were directly
compensated based on the room rate. In addition, the IRS received additional services at the
conference, such as continental breakfast each day for all attendees, a welcome reception with
two drink coupons for all attendees, room upgrades, free Internet, and free meeting space. The
IRS was unable to provide us with any documentation detailing any negotiations conducted with
the hotels related to the conference expenses. We question whether the room rate could have
been negotiated at a lower rate if some of these services were not included and event planners
were not used. The hotels’ willingness to pay a commission to the planners indicates that
additional room discounts may have been available to the IRS. An IRS Procurement Officer
advised us that the IRS has previously been able to negotiate lower room rates, below per diem,8
when a large number of rooms were reserved at one time. In addition, a national sales
representative for Hilton Hotels and Resorts stated that they would negotiate room rates lower
than the Government per diem depending on the number of rooms, location, and time of year.
We did not identify any policy or guidance in place at the time the conference was conducted
outlining the appropriate use of non-governmental event planners and how these types of
individuals should be selected for use by IRS management. Department of the Treasury
guidance9 implemented in November 2012 places limitations on the use of planners because their
use can reduce the Department of the Treasury’s control over conference expenses and can
increase costs. This guidance now requires the Department of the Treasury’s Office of the
Assistant Secretary for Management and Chief Financial Officer to approve in advance the use of
event planners for conference site selection.

Recommendations
The Chief Financial Officer should:
Recommendation 3: Reemphasize existing procedures to ensure that business units contact
CDS function personnel to coordinate planning of any future conference or event. Further,
additional procedures should be developed that require all documentation supporting the
selection of non-Government facilities for future conferences be maintained for management
review.


8
  The per diem allowance (also referred to as subsistence allowance) is a daily payment instead of reimbursement for
actual expenses for lodging, meals, and related incidental expenses.
9
  Treasury Directive 12-70, Hosted or Sponsored Conference Planning and Approval, November 28, 2012.

                                                                                                           Page 9
                                    Review of the August 2010
                              Small Business/Self-Employed Division’s
                                Conference in Anaheim, California



       Management’s Response: The IRS agreed with this recommendation. The
       Agency-Wide Shared Services Procurement office will update and reissue Policy and
       Procedures Memorandum No. 70.24, Acquiring Training, Meeting and Conference
       Space, to reflect guidance in Treasury Directive 12-70 and reemphasize existing
       procedures for planning conferences or events and maintaining supporting
       documentation. The Human Capital Office will update IRM 6.410.1, Leadership and
       Education, Selection of Off-Site Locations and Facilities for Training, to include
       procedures that require all documentation supporting the selection of non-Government
       facilities for future conferences be maintained for management review.
Recommendation 4: Develop and implement procedures outlining the appropriate use of
non-governmental event planners when planning IRS conferences. This should include how
event planners are selected and compensated.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer issued the December 27, 2012, Interim Guidance Memorandum,
       Reissued Interim Guidance on the Approval Process for Event-Related Spending, which
       limits the use of external event planners. The Human Capital Office will update
       IRM 6.410.1, Leadership and Education, Selection of Off-Site Locations and Facilities
       for Training, to include guidance on the use, selection, and compensation of event
       planners for those instances in which event planners must be used.

Planning Trips Were Made for the Conference
IRS employees made the following planning trips before the conference was held:
      A November 2009 planning trip by three IRS employees and the two event planners to
       Anaheim, California, and San Francisco, California, to review potential hotels for the
       conference. SB/SE Division management stated that these hotels had responded to the
       event planners’ Requests for Proposals as a potential conference site and that the visits
       were made to inspect the location, space, and audiovisual technology to determine which
       site best met the meeting requirements. The cost of the IRS employees’ travel for this
       trip was approximately $3,500.
      A June 2010 planning trip by eight IRS employees to Anaheim, California, at a cost of
       approximately $10,300. IRS management stated that this trip was performed to meet
       with the sales, convention services, audiovisual, reservations, and catering staff from
       each hotel to discuss various issues, including room commitment, reservations,
       cancellation fees, number of rooms required for conference attendees with disabilities,
       shipping and receiving, and storage. In addition, IRS management stated that internal
       discussions with IRS personnel were held to discuss staffing and support needs.



                                                                                        Page 10
                                           Review of the August 2010
                                     Small Business/Self-Employed Division’s
                                       Conference in Anaheim, California



        An August 2010 (the week before the conference was held) planning trip to Anaheim,
         California, by 16 IRS employees at a cost of approximately $22,000. SB/SE Division
         management does not consider this a “planning” trip and stated that support personnel
         traveled to Anaheim the week prior to the conference to handle all setup work.
We did not identify any policy or guidance that outlined the reason(s) when and why planning
trips should be performed for conferences, the appropriate number of employees necessary for
these types of trips, and whether a senior management official should approve these trips in
advance. However, the costs associated with these planning trips may have been excessive based
on the number of employees who were involved. Although some local employees were involved
in planning for the conference, additional local SB/SE Division employees who attended the
conference may have been able to perform more of the planning steps to reduce further the
overall costs.

Recommendation
Recommendation 5: The Chief Financial Officer should establish procedures clearly
outlining when planning trips should be performed for conferences. These procedures should
require documentation of the reason and estimated cost for planning trips, along with the
requirement that local IRS employees are used to the extent possible to perform these planning
trips. This information should be provided to a designated management official or an executive
for approval.
         Management’s Response: The IRS agreed with this recommendation. The Human
         Capital Office will update IRM 6.410.1 Leadership and Education, Selection of Off-Site
         Locations and Facilities for Training, to emphasize the requirement to document the
         reason for and estimated cost of planning trips and to maintain documentation of
         executive approval of the planning trip.

Fifteen Outside Speakers Were Contracted for the Conference
For the conference, SB/SE Division management contracted with 15 outside speakers for
presentations at a total cost of $135,350.10 For 13 of these speakers, SB/SE Division
management used sole-source contracts specifically requesting the speakers used.11 A
sole-source contract is used when a determination is made that only one individual or company
can perform the requested service. These contracts all related to leadership topics. The same


10
   See Appendix VIII for a list of the speakers and a description of the services provided.
11
   Services for the remaining two speakers (Mark Nishan and Vincent Stovall) were obtained using a
Standard Form 182, Request, Authorization, Agreement & Certification of Training. SB/SE Division management
stated that these two speakers were identified later in the conference planning, and they did not have ample time to
use the sole-source process.

                                                                                                           Page 11
                                     Review of the August 2010
                               Small Business/Self-Employed Division’s
                                 Conference in Anaheim, California



General Schedule-14 revenue officer previously discussed who was in charge of planning the
conference prepared and signed the sole-source justification on behalf of SB/SE Division
management. SB/SE Division management stated that the process for selecting the 15 outside
speakers included a committee of SB/SE Division senior management who made the decision
regarding speaker topics and identified potential speakers. According to IRS management, the
committee presented the agenda, workshops, and keynote speakers to the SB/SE Division
Commissioner, who ultimately approved them.

The conference featured 15 speakers at a cost of $135,350
The IRS paid for 15 outside speakers and offered additional workshops conducted by IRS
management. Appendix X shows that 24 workshops (“knowledge portals”) were presented on
the second day of the conference (10 workshops conducted by IRS speakers and 14 workshops
presented by external speakers paid by the IRS). These workshops were conducted multiple
times (generally four times by each speaker) during this day. As a result, attendees could choose
from between 22 to 23 different workshops at each of the four workshop session times that could
be attended. Because 10 of these workshops were conducted by IRS personnel, some attendees
may not have viewed any of the workshops conducted by the paid external speakers.

Two keynote speakers were featured
In addition to the 24 workshops presented on the second day of the conference, the IRS paid
two additional speakers to present keynote addresses at the conference. One keynote speaker
presented the same speech for two sessions on the first day of the conference. The second
keynote speaker presented his keynote address for two sessions on the last day of the conference.
Based on the conference agenda, all attendees had the opportunity to attend both keynote
speeches.
One keynote speaker was contracted to perform two keynote speeches that lasted approximately
one hour each, and the speaker was paid $17,000. According to the contract signed by the IRS,
this speaker was “uniquely qualified to deliver this presentation because of the combination of
his artistic abilities and his presentation skills. In each presentation, he will create a unique
painting that reinforces his message of unlearning the rules, breaking the boundaries, and freeing
the thought process to find creative solutions to challenges.”
The speaker created six paintings at these two keynote sessions (three at each session). These
paintings consisted of the following portraits: Albert Einstein (one); Michael Jordan (one);
Abraham Lincoln (one); U2 singer Bono (one); and the Statute of Liberty (two).
At each session, one attendee was selected by the speaker and presented with one of the
paintings. SB/SE Division management indicated that three paintings were donated to the




                                                                                         Page 12
                                         Review of the August 2010
                                   Small Business/Self-Employed Division’s
                                     Conference in Anaheim, California



Combined Federal Campaign12 as auction items (these paintings were sold for $75, $130, and
$380). SB/SE Division management stated that the final painting prepared during these
presentations was lost. Figure 2 shows an example of a painting prepared during the conference.
      Figure 2: One of Six Paintings Created During the Keynote Presentation




Source: Recorded conference sessions.

The second keynote speaker was paid $27,500 (including travel expenses) for two speeches
lasting approximately one hour each. According to the contract signed by the IRS, this speaker
was uniquely qualified because the presentation was based on a book published by the speaker,
and the speaker “will share how seemingly random combinations of ideas can drive radical
innovations. His concept of Intersectional Ideas illustrates how ideas from different fields can be
combined to generate new solutions to existing challenges.”

12
  The Combined Federal Campaign is a charity campaign created and run by Federal workers that raises funds to
benefit authorized charities.

                                                                                                      Page 13
                                     Review of the August 2010
                               Small Business/Self-Employed Division’s
                                 Conference in Anaheim, California



According to the contract, this speaker’s fee of $27,500 included a $2,500 flat fee for travel,
which the contracting officer authorized to accommodate first-class travel. According to the
contracting officer, this travel charge was non-negotiable and was necessary in order to obtain
the speaker. In addition, SB/SE Division management stated that the travel costs for “this top
rated keynote speaker was appropriate.” No travel receipts were obtained by the IRS for our
review, and the contracting officer did not know whether the speaker traveled first class or not.
We reviewed the speaker’s fee schedule and determined that the speaker requires the payment of
first-class airfare to domestic locations in addition to his speaking fee.

Star Trek Parody and “SB/SE Shuffle” Videos Were Produced for the
Conference
As previously stated, the IRS reported that it expended $50,187 on “videos” for the conference,
but was unable to provide any details supporting this cost. We determined that SB/SE Division
management showed several videos at the conference, including a Star Trek parody and another
video entitled “SB/SE Shuffle.”
The conference theme was “Leading into the Future,” with a Star Trek parody video shown at
the beginning of the conference. This video consisted of a scripted presentation featuring
SB/SE Division executives portraying Star Trek characters in a tax-themed parody.
SB/SE Division management stated that the purpose of the video was to open the conference by
highlighting “current issues facing the IRS and SB/SE [Division] in the leadership arena and set
the stage for the many topics being covered at the conference.” According to SB/SE Division
management, the SB/SE Division Commissioner verbally approved the creation of the video.
Although SB/SE Division management did not track a specific cost associated with producing
the Star Trek video, we determined the following:
      The Star Trek video was approximately 5 minutes and 40 seconds long and featured
       SB/SE Division executives in Star Trek costumes on a mock set of the Starship
       Enterprise. Per the SB/SE Division, employees purchased the costumes using personal
       funds.
      The IRS constructed a mock set at its television studio located in New Carrollton,
       Maryland, at a cost of $2,400. However, SB/SE Division management does not have any
       documentation supporting this amount.
      IRS personnel located at its New Carrollton television studio worked on the video
       production. The average grade for these IRS employees was a General Schedule-14.
      The SB/SE Division estimated that it takes 11 hours of staff work to produce one minute
       of finished video. Based on the length of the Star Trek video, we estimate it took
       approximately 62 staff hours to produce the final video. At a minimum hourly rate of

                                                                                         Page 14
                                     Review of the August 2010
                               Small Business/Self-Employed Division’s
                                 Conference in Anaheim, California



       $50.00 for a General Schedule-14 employee, this converts to approximately $3,100 in
       staff time.
      No documentation was maintained to track any costs associated with the development of
       the other production costs, such as the script development, makeup, lighting, and
       videotaping.
In addition, a video entitled “SB/SE Shuffle” was produced featuring 15 SB/SE Division
executives and managers dancing on a stage. This video was 2 minutes and 52 seconds long.
This video was shown during the conference and “was designed to engage managers and help
facilitate a connection between executives and managers.” SB/SE Division management stated
that the SB/SE Division Leadership Planning Committee developed the video and the SB/SE
Division Commissioner approved the video.
No documentation was maintained to determine any costs associated with the “SB/SE Shuffle”
video. Based on the estimated production costs previously discussed, we estimate that
approximately $1,591 in staff time was necessary to produce this video. Our estimated costs for
these videos exclude the time expended by SB/SE Division executives and managers when
filming these videos.

Recommendation
Recommendation 6: The Chief Financial Officer should establish procedures to clearly
outline the need for and value provided by any conference videos for future conferences. The
purpose and use of videos should be clearly detailed in any request for a conference and include
the applicable costs in the approval request.
       Management’s Response: The IRS agreed with this recommendation. In
       February 2013, the IRS created a Service-Wide Video Editorial Board to review and
       approve all video projects planned throughout the IRS with consideration to cost, topic,
       and tone. The reviews will include training and education videos, webinars, vignettes,
       etc., for external placement (YouTube, IRS.gov, and related websites) and any other
       ad hoc taping projects, such as videos for use at IRS meetings and conferences. Part of
       the Service-Wide Video Editorial Board’s efforts will be focused on ensuring that
       internal and external videos have a sound business purpose and advance tax
       administration interests, either through taxpayer education or internal training.

A Substantial Number of Internal Revenue Service Employees
Received Hotel Upgrades
As part of the Letters of Intent with the hotels, the IRS received a certain number of free rooms
per night as well as suite upgrades that were used by IRS personnel. Federal employees
traveling for work are paid for their lodging costs plus a fixed amount for meals (per diem). As
                                                                                          Page 15
                                           Review of the August 2010
                                     Small Business/Self-Employed Division’s
                                       Conference in Anaheim, California



part of the agreement, the hotels charged the IRS the Federal Government rate of $135 per night
for all rooms (including suites) provided.
Specifically, the Letters of Intent indicate that 93 suite upgrades were provided by the Hilton,
33 by the Marriott, and six by the Sheraton each night of the conference. This represents
4.7 percent of the 2,830 rooms that the hotels agreed to reserve in the Letters of Intent.
Although the per diem rate of $135 was charged by the hotels, we determined the rack rates13 for
the upgraded rooms provided ranged from $299 per night to $1,500 per night, depending on the
room and the hotel. For example, the Commissioner, SB/SE Division, stayed five nights in a
Presidential Suite at the Marriott. This room is described as having a private bedroom, living
area, conference table, wet bar, and billiard table. We spoke with a Marriott representative who
stated that this suite currently retails for $3,500 per night.14
The Deputy Commissioner, SB/SE Division, stayed five nights in a two-bedroom Presidential
Suite at the Hilton. The IRS paid the standard per diem rate of $135 per night for the room,
which would have normally cost guests $1,499 per night during a four night stay. Figure 3
shows a Presidential Suite at the Hilton hotel.
                         Figure 3: A Presidential Suite at the Hilton Hotel




              Source: Hilton website shown with permission from the Hilton Hotels and Resorts.

13
   “Rack rate” is a hotel industry term for the price a hotel charges for a room before any discount has been taken
into account.
14
   The Marriott Hotel and Resorts declined our request to show an image of a Presidential Suite at the Anaheim
Marriott from their website.

                                                                                                            Page 16
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



Per the Letters of Intent, the IRS negotiated to receive 10 complimentary rooms per night
available among the three participating hotels. These rooms were used primarily by the paid
speakers and non-IRS technical support staff. In addition, the two event planners were provided
complimentary rooms for a total of 19 nights, and two local employees were each provided
complimentary rooms for six nights.
Because these free rooms and upgrades were part of the Letters of Intent with the hotels, they are
not gifts to employees. However, the solicitation and use of hotel room upgrades increases the
perception of wasteful spending and should be carefully considered in the future.

Recommendation
Recommendation 7: The Chief Financial Officer should evaluate whether the solicitation of
hotel room suite upgrades for use by IRS employees should be allowed in agreements with hotels
hosting IRS conferences in the future. In addition, any agreement with hotels containing hotel
suite upgrades should be approved by the applicable business unit executive.
        Management’s Response: The IRS agreed with this recommendation. The Human
        Capital Office will update Internal Revenue Manual 6.410.1, Leadership and Education,
        Selection of Off-Site Locations and Facilities for Training, to prohibit the solicitation of
        room suite upgrades and to require approval by the applicable business unit executive
        when upgrades are offered at no cost to the IRS. The Agency-Wide Shared Services
        Procurement office will update and reissue Policy and Procedures Memorandum
        No. 70.24, Acquiring Training, Meeting and Conference Space, to prohibit the
        solicitation of room suite upgrades and to require approval by the applicable business unit
        executive when upgrades are offered at no cost to the IRS.

Local Employees Were Granted Authorization to Stay at the
Conference Hotels
IRS travel guidelines allow employees on official travel more than 40 miles from both their
official duty station and residence to claim per diem expenses.15 These guidelines outline several
circumstances that may justify an exception, such as when an employee is attending training or a
conference and the location is at least 30 miles from both their official duty station and
residence. Travel guidelines state that any per diem expenses (including lodging) are taxable to
the employee if they are incurred within the local commuting area.
After the Anaheim conference was approved in April 2010, the SB/SE Division Commissioner
authorized local employees the option of staying overnight at the conference hotels, regardless of


15
  The per diem allowance (also referred to as subsistence allowance) is a daily payment instead of reimbursement
for actual expenses for lodging, meals, and related incidental expenses.

                                                                                                        Page 17
                                      Review of the August 2010
                                Small Business/Self-Employed Division’s
                                  Conference in Anaheim, California



their post of duty. This decision was made to reduce the demands on local travelers who would
otherwise experience lengthy commutes daily during the conference and to foster employee
morale and team spirit.
The IRS provided us with a list of 38 local IRS employees who stayed at the hotels and incurred
per diem expenses of $29,364. Additionally, we identified seven other local area employees who
stayed at the Anaheim hotels and incurred per diem expenses totaling $4,816 who the IRS did
not report on the list provided.
Because per diem expenses are taxable to the employees in the local commuting area, we asked
the IRS to identify the employees who received a Form W-2, Wage and Tax Statement, reporting
the taxable per diem. IRS management informed us that four of the 38 employees they knew had
performed local travel were not issued a Form W-2 as required. In addition, IRS management
agreed that two of the seven additional employees we identified incurred taxable travel expenses
and were not issued Forms W-2. They disagreed with the other five because they believe the
employees’ residences and posts of duty were more than 30 miles from the conference location.
However, our research indicated that the posts of duty for these employees were within 30 miles
of the conference location. As a result, we believe that these employees incurred taxable travel.

Recommendation
Recommendation 8: The Chief Financial Officer should identify all local employees who
claimed per diem travel related to the conference and ensure that Forms W-2 are issued to all
employees for taxable travel as appropriate.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       identify local employees who did not receive a Form W-2 for taxable travel and will issue
       them as appropriate.

Several Meals and a Welcome Reception Were Provided During the
Conference
As part of its agreement with the Anaheim hotels, the IRS required certain concessions including
several food and beverage requests. This included the following items that were contracted to be
served during the conference: a welcome reception with cocktails (each attendee was provided
two free drink coupons), salad, appetizers, fajitas, pasta, and dessert; a daily continental breakfast
consisting of two bread items, whole fruits, juice, tea, and coffee; and beverages and snacks
during morning and afternoon breaks.
In addition to their lodging costs, Federal employees traveling for work are paid a fixed amount
for meals (per diem). In Calendar Year 2010, the meal and incidental expenses allowance for
Anaheim, California, was $71 per day. According to the Federal Travel Regulations, employees


                                                                                             Page 18
                                    Review of the August 2010
                              Small Business/Self-Employed Division’s
                                Conference in Anaheim, California



are not required to reduce their per diem reimbursement for complimentary meals provided by a
hotel or motel.

Other Expenses Related to the Conference
During our review, we identified other questionable expenses related to the conference. These
expenses related to the use of an “information corridor” staffed by IRS employees from various
IRS business units during the conference, gifts and/or promotional items provided to conference
attendees, and a contract for automated response tools used by attendees during the conference.

An exhibitor hall was used at significant additional cost
An information corridor, i.e., exhibitor hall, was established at the conference where
“representatives from various offices within the IRS could share information on their services
and share hands-on demos with meeting participants.” IRS documentation indicated that there
were 41 booths at the information corridor staffed by IRS employees from various business units
as well as non-IRS employees. Specifically:
      42 IRS employees traveled for the information corridor (seven SB/SE Division
       employees and 35 non-SB/SE Division employees). The IRS reported more than $44,000
       in total travel related to the information corridor.
      Examples of some booths at the information corridor included: the IRS Employee
       Recognition Program; Equal Employment Opportunity/Diversity personnel; the IRS
       Recruitment Office; the Wellness Program; the Federal Managers Association; Worker’s
       Compensation; and USAJobs/CareerConnector.
      Per the IRS website,
       The exhibit featured engaging activities, such as an outer space galaxy challenge
       giveaway, Los Angeles Angels baseball ticket giveaway, and a time capsule (to share
       visions of SB/SE in 2020), as well as booths, displays, and an assortment of information
       about the work of SB/SE. The Information Galaxy was attended by over 1,800
       individuals who visited booths hosted by SB/SE operating units and other IRS business
       units, executives, and senior managers. In addition to the Information Galaxy, it featured
       networking opportunities, educational workshops and forward-looking technology.
      At the information corridor, 24 tickets to two Los Angeles Angels baseball games
       (12 tickets per game) were used as contest prizes. SB/SE Division management advised
       us that these tickets were donated by the Hilton, the Marriott, and the Anaheim
       Convention and Visitors Bureau. They also stated that it is common industry practice for
       items to be donated to groups that hold large events in a particular city. IRS management
       stated that they relied upon advice from IRS Chief Counsel personnel for the appropriate
       treatment of these tickets.
                                                                                        Page 19
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



The use of an information corridor and the associated costs were not clearly delineated in the
request for the conference approved by the Deputy Commissioners.

Promotional items/gifts were provided to IRS employees
Numerous gifts/trinkets were provided to attendees at an estimated cost of more than $64,000.
During our review, we noted that IRS employees attending the conference were provided with
the following items per IRS documentation:
        2,804 “brief bags” with an imprinted logo were provided to all attendees at an estimated
         cost of $15,669. The logo on each bag included the caption “Leading into the Future,”
         the theme of the conference.
        2,800 hard-covered spiral journals with a conference logo imprinted on the front and the
         hotels’ and event planners’ logos on the inside cover. The IRS paid $2,449 for
         505 journals, with an additional $13,064 paid by the hotels, the event planners, and the
         Anaheim Convention and Visitors Bureau.
        800 lanyards, 75 travel mugs, and 75 picture frames/clocks with the SB/SE Division logo,
         along with an unknown number of imprinted portfolios, sticky note pads, bookmarks, and
         retractable badge holders with a reported cost totaling approximately $19,210.
        Various promotional items totaling approximately $27,000 were provided at the
         information corridor booths. These included items such as “engraved pens/badge
         holders, give-away items from Oriental Trading,16 promotional pens/printing poster/web
         cams, and imprinted can coolers/post-it notes.”
We did not identify any guidance at the time of the conference outlining the purchase of gift
items/mementos for conferences sponsored by the IRS. In August 2011, the IRS issued guidance
to its senior executive staff discontinuing the purchase of any promotional items with logos or
customized slogans, such as pens, mouse pads, mugs, and lanyards. The Deputy Commissioner
for Operations Support or the Deputy Commissioner for Services and Enforcement must approve
any exceptions to this policy. In October 2012, the IRS incorporated this guidance into its
internal procedures manual.

Automated response tools were rented
The IRS also rented approximately 2,800 automated (audience) response tools at a cost of
$24,828. SB/SE Division management advised us that their purpose was to provide an
interactive training tool that would allow the speaker to gather results in real-time and share with


16
  These items were purchased by the Human Capital Office for approximately $730 and were given to attendees at
the information corridor as well as during a conference workshop. They consisted of various items, including key
chains, plastic coins, miniature stuffed animals, plastic squirting fish, and miniature bendable plastic figures.

                                                                                                        Page 20
                                    Review of the August 2010
                              Small Business/Self-Employed Division’s
                                Conference in Anaheim, California



participants. While the automated response tools may have provided some benefit to gauge
audience participation, it was not used for CPE.
We reviewed the sessions that were recorded on 32 Digital Video Discs by the hotels during
the conference and determined that the automated response tools were used for a total of
127 questions. However, a number of the questions were trivial in nature and were not intended
to enhance attendees’ knowledge of SB/SE Division operations. For example, the tools were
used for 53 questions on the first day of the conference, mainly for an interactive
“Jeopardy”-style game to quiz attendees on items covered in prior sessions or available in the
information corridor. It appears the automated response tools were not used during the second
day of the conference. On the last day, it was used for 74 questions during two sessions.

Recommendation
Recommendation 9: The Chief Financial Officer should establish procedures to clearly
outline the need for and value provided by any information corridors/exhibitor halls and other
technology for future conferences. The purpose and use of any exhibitor hall or technology
should be clearly detailed in any request for a conference and include the applicable costs,
including giveaway items, in the approval request.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer issued the December 27, 2012, Interim Guidance Memorandum,
       Reissued Interim Guidance on the Approval Process for Event-Related Spending, which
       outlines the requirements to include the full cost of events when submitting events for
       approval. The Human Capital Office will update IRM 6.410.1, Leadership and
       Education, Selection of Off-Site Locations and Facilities for Training, to reflect guidance
       on the analysis of the use of exhibitor halls and specialized technology.




                                                                                         Page 21
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to identify the IRS’s spending on conferences during
FYs 2010 through 2012. One conference was selected to determine whether it was properly
approved and the expenditures were appropriate. Although our primary focus was the
August 2010 SB/SE Division’s All Managers Conference in Anaheim, California, we also
surveyed other IRS conferences held during FYs 2010 through 2012. To accomplish our
objective, we:
I.      Reviewed the applicable Federal and IRS guidelines for spending on conferences.
II.     Obtained a complete list of conferences1 held by the IRS for FYs 2010 through 2012.
        A. Identified conferences hosted by the IRS that may warrant review based upon specific
           allegations provided to the Treasury Inspector General for Tax Administration,
           estimated cost, location, number of attendees, cost per conference and attendee, etc.
        B. Requested additional information from the IRS for selected conferences. (We
           reviewed detailed cost information related only to the Anaheim conference.)
III.    For the Anaheim conference, reviewed the process used by the IRS to determine whether
        the required information and support was included in the request for approval.
IV.     Evaluated the costs incurred for the Anaheim conference to determine whether the
        expenditures were appropriate and reasonable.
        A. Obtained documentation to calculate the costs charged on IRS travel vouchers by
           attendees at the conference.
        B. Obtained and reviewed documentation from the IRS detailing expenditures to
           determine whether they were excessive or inappropriate.
        C. Determined whether IRS employees attending the conference received
           complimentary meals and lodging tax exemptions from the conference hotels.
        D. Determined whether local employees who stayed in the conference hotels received a
           taxable benefit and were authorized to charge the Government for lodging.




1
  For this audit, we defined conferences as an IRS-sponsored meeting, retreat, seminar, symposium, or event that
involved travel for 50 or more attendees.

                                                                                                         Page 22
                                     Review of the August 2010
                               Small Business/Self-Employed Division’s
                                 Conference in Anaheim, California



       E. Estimated the total amount received by outside speakers and event planners based on
          their services.
       F. Reviewed available documentation to determine whether planning trips were made
          for the conference and the total costs associated with these trips.
       G. Determined whether any IRS employees received awards based on work supporting
          the conference and, if so, the amount and justification.
       H. Discussed potential exceptions, such as questionable/excessive costs, with applicable
          IRS management.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s approval process for conferences
and the IRS’s policy for off-site events. We evaluated these controls by interviewing IRS
management, reviewing a sample of travel vouchers, and reviewing other applicable
documentation for the Anaheim conference.




                                                                                         Page 23
                                  Review of the August 2010
                            Small Business/Self-Employed Division’s
                              Conference in Anaheim, California



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Jonathan T. Meyer, Director
Alicia P. Mrozowski, Director
Heather M. Hill, Audit Manager
Janice M. Pryor, Audit Manager
Mary F. Herberger, Lead Auditor
LaToya R. Penn, Senior Auditor
Gary D. Pressley, Senior Auditor
Joseph P. Smith, Senior Auditor




                                                                                   Page 24
                                   Review of the August 2010
                             Small Business/Self-Employed Division’s
                               Conference in Anaheim, California



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Chief Financial Officer OS:CFO
Director, Strategy and Finance, Small Business/Self-Employed Division SE:S:SF
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Director, Office of Legislative Affairs CL:LA
Audit Liaisons:
   Commissioner, Small Business/Self-Employed Division SE:S
   Chief Financial Officer OS:CFO




                                                                                Page 25
                                              Review of the August 2010
                                        Small Business/Self-Employed Division’s
                                          Conference in Anaheim, California



                                                                                              Appendix IV

              Internal Revenue Service Conferences
           Held During Fiscal Years 2010 Through 2012 1

                                                         Estimated
FY                     Name                  Division      Cost       Attendees       Venue            Location
                                                                                  Marriott/Hilton/
2010      SB/SE All Managers CPE              SB/SE      $4,133,183     2,609                        Anaheim, CA
                                                                                  Sheraton
                                                                                  Various IRS
                                                                                                     Approx. 60
2010      SB/SE Exam CPE FY 2010              SB/SE      $3,180,412     3,892     locations &
                                                                                                     various cities
                                                                                  private space
          TAS Technical Training                                                  Philadelphia       Philadelphia,
2010                                           TAS       $2,933,042     2,113
          Symposium                                                               Marriott           PA
          SB/SE Collection Leadership                                             Manchester
2010                                          SB/SE      $1,198,397      721                         San Diego, CA
          CPE                                                                     Grand Hyatt
          LB&I (LMSB) All Managers                                                Marriott
2010                                          LB&I       $1,181,871      800                         Atlanta, GA
          Meeting                                                                 Marquis Hotel
                                                                                  Chicago Hyatt
2010      SB/SE Technical Training           Counsel     $1,158,628      665                         Chicago, IL
                                                                                  Regency
          SB/SE Collection
                                                                                  Atlanta Marriott
2010      Administrative Professional         SB/SE       $909,792       813                         Atlanta, GA
                                                                                  Marquis
          CPE
          SB CPE: Bank Secrecy Act                                                Downtown
2010                                          SB/SE       $786,939       527                         Chicago, IL
          Program CPE                                                             Marriott
          FY 2010 CPE for Exam                                                    Kansas City        Kansas City,
2010                                          SB/SE       $746,994       562
          Secretaries                                                             Marriott Hotel     MO
                                                                                  Chicago Hyatt
2010      LMSB Technical Training            Counsel      $638,635       433                         Chicago, IL
                                                                                  Regency
                                                                                  Westin
          Appeals Processing Services
2010                                         Appeals      $637,930       382      Michigan           Chicago, IL
          CPE
                                                                                  Avenue
          Excise Revenue Agent CPE
2010                                          SB/SE       $610,717       450      Marriott           Anaheim, CA
          2010
          Employment Tax Specialists                                              Omni San
2010                                          SB/SE       $589,142       410                         San Diego, CA
          CPE 2010                                                                Diego Hotel



1
    Abbreviations used in this table are defined in Appendix V.

                                                                                                        Page 26
                                         Review of the August 2010
                                   Small Business/Self-Employed Division’s
                                     Conference in Anaheim, California



                                                  Estimated
FY                 Name                Division     Cost      Attendees       Venue            Location
2010   GE CPE                           TE/GE     $529,863       368      Sheraton Hotel     Denver, CO
                                                                                             New Orleans,
2010   AWSS All Managers CPE            AWSS      $498,000       277      Marriott Hotel
                                                                                             LA
                                                                          Westin Canal       New Orleans,
2010   Settlement Officers CPE Field   Appeals    $463,076       308
                                                                          Place              LA
                                                                          Intercontinental
2010   All Managers Meeting            Appeals    $400,411       246                         Chicago, IL
                                                                          Hotel
                                                                          Crown Plaza        San Antonio,
2010   LMSB Support Staff CPE           LB&I      $381,113       300
                                                                          Riverwalk          TX
       Abusive Transactions Summit                                        Manchester
2010                                    SB/SE     $358,938       238                         San Diego, CA
       Training                                                           Grand Hyatt
       CI Supervisory Special Agent                                       Westin City
2010                                     CI       $351,413       224                         Dallas, TX
       Workshops                                                          Center
       EP Rulings and Agreements                                                             Indianapolis,
2010                                    TE/GE     $318,656       306      Hyatt Regency
       Annual CPE                                                                            IN
       Business Master File Revenue
2010                                   Appeals    $316,031       134      Hilton             Memphis, TN
       Officer Training
       IT Services Leadership                                             Millennium
2010                                    MITS      $307,187       320                         Cincinnati, OH
       Conference                                                         Hotel
       New Hire Orientation –                                             Crowne Plaza
2010                                   Appeals    $301,771       230                         Dallas, TX
       Settlement Officers Session 2                                      Dallas
                                                                                             Washington,
2010   New Attorney Orientation        Counsel    $263,577       190      Grand Hyatt
                                                                                             D.C.
       Taxpayer Advocacy Panel                                                               Washington,
2010                                     TAS      $263,275       136      Capital Hilton
       Annual Meeting                                                                        D.C.
2010   EO Basic New Hire Training       TE/GE     $260,765       89       Harris Tower       Atlanta, GA
                                                                          Washington
                                                                                             Washington,
2010   TAS Leadership Conference         TAS      $259,212       127      Marriott Metro
                                                                                             D.C.
                                                                          Center
                                                                          Sheraton
2010   Specialty Managers CPE           SB/SE     $248,463       126      Riverwalk          Tampa, FL
                                                                          Hotel
       Congressional Affairs Program                                                         Washington,
2010                                     TAS      $243,705       123      Capital Hilton
       Conference                                                                            D.C.
2010   IRS Nationwide Tax Forums        C&L       $242,331       259      Mandalay Bay       Las Vegas, NV
       Technical Services Tax                                             Crowne Plaza       San Antonio,
2010                                    SB/SE     $225,874       211
       Examiner CPE                                                       Riverwalk          TX
2010   IRS Nationwide Tax Forums        C&L       $223,618       239      Hilton             Atlanta, GA


                                                                                                Page 27
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



                                                  Estimated
FY                 Name                Division     Cost      Attendees       Venue            Location
2010   IRS Nationwide Tax Forums         C&L      $222,682       238      Hilton             New York, NY
                                                                          Chicago Hyatt
2010   GLS Technical Training           Counsel   $218,877       84                          Chicago, IL
                                                                          Regency
2010   All Managers Meeting – EUES      MITS      $212,540       126      Hilton             Atlanta, GA
                                                                          Town &
2010   IRS Nationwide Tax Forums         C&L      $208,648       223      Country Hotel      San Diego, CA
                                                                          & Conf. Center
2010   IRS Nationwide Tax Forums         C&L      $206,776       221      Hyatt              Chicago, IL
       SCR/Administrative Officer                                                            San Francisco,
2010                                    AWSS      $205,000       120      Hilton
       CPE                                                                                   CA
                                                                          Omni               San Antonio,
2010   CPE                              AWSS      $201,215       142
                                                                          La Mansion         TX
                                                                          Omni               San Antonio,
2010   CPE                              AWSS      $200,110       138
                                                                          La Mansion         TX
2010   IRS Nationwide Tax Forums         C&L      $189,935       203      Caribe Royale      Orlando, FL
2010   Research CPE                     SB/SE     $187,651       107      Omni Hotel         San Diego, CA
                                                                          Sheraton           San Antonio,
2010   S&F Face to Face CPE             SB/SE     $184,853       126
                                                                          Gunter Hotel       TX
       Specialty Administrative                                                              San Antonio,
2010                                    SB/SE     $184,835       81       Crown Plaza
       Professionals CPE                                                                     TX
                                                                          Renaissance
       Accounts Management Analyst
2010                                     W&I      $182,311       139      Hotel              Atlanta, GA
       Technical Training
                                                                          Downtown
2010   BMO All Employees CPE             W&I      $178,146       180      Sheraton           Atlanta, GA
                                                                          Martinsburg        Martinsburg,
2010   EOps All Managers Meeting        MITS      $171,573       185
                                                                          Computing Ctr.     WV
                                                                          Intercontinental
2010   All Employees CPE                AWSS      $166,431       150                         Dallas, TX
                                                                          Hotel
       FY 2010 CPE for Fraud                                              Blackstone
2010                                    SB/SE     $163,009       101                         Chicago, IL
       Technical Advisors                                                 Renaissance
                                                                          Wyndam
2010   All Managers CPE                 AWSS      $160,121       77       Virginia           Richmond, VA
                                                                          Crossing Hotel
2010   TE/GE Technical Training         Counsel   $158,372       132      Hyatt Regency      Chicago, IL
                                                                          Kansas City        Kansas City,
2010   ERCS Oracle Discover             SB/SE     $154,076       74
                                                                          Campus             MO
                                                                          Chicago Hyatt
2010   FM Manager Training              Counsel   $152,781       90                          Chicago, IL
                                                                          Regency

                                                                                               Page 28
                                            Review of the August 2010
                                      Small Business/Self-Employed Division’s
                                        Conference in Anaheim, California



                                                    Estimated
FY                 Name                  Division     Cost      Attendees       Venue           Location
                                                                            El Paso
       CI Narcotics Money
2010                                        CI      $145,306       106      Intelligence      El Paso, TX
       Laundering Training Seminar
                                                                            Center
       CI Chicago Field Office CPE                                                            Indianapolis,
2010                                        CI      $140,937       180      Weston Hotel
       Conference                                                                             IN
                                                                            The Liaison       Washington,
2010   2010 IRS Research Conference        RAS      $140,893       350
                                                                            Capitol Hill      D.C.
                                                                            Chicago Hyatt
2010   CT Technical Training              Counsel   $140,496       87                         Chicago, IL
                                                                            Regency
       Systems Integration and
                                                                            Tennessee
2010   Coordination Branch All Hands      MITS      $134,834       91                         Memphis, TN
                                                                            Computing Ctr.
       Meeting – EOps
       California All Managers
2010                                      SB/SE     $134,608       130      Hilton            San Jose, CA
       Meeting
       CI Warrants and Forfeiture                                                             Ft. Lauderdale,
2010                                        CI      $131,291       130      Fort Lauderdale
       Asset Forfeiture CPE                                                                   FL
       Strategy and Finance Analyst                                         Hilton
2010                                      Appeals   $127,501       106                        Memphis, TN
       CPE                                                                  Memphis
       SB/SE Area Hiring Coordinator                                        Chicago Hilton
2010                                      SB/SE     $127,500       86                         Chicago, IL
       Planning Meeting                                                     Suites
       Field Specialist Issue Focus                                         San Diego
2010                                      LB&I      $126,685       86                         San Diego, CA
       Meeting                                                              Marriott
                                                                            Hilton Garden
2010   CI Seattle Field Office CPE          CI      $125,579       127                        Seattle, WA
                                                                            Inn
       W&I Compliance Headquarters
2010                                       W&I      $121,689       140      Ritz Carlton      Atlanta, GA
       Analysts Conference
       Settlement Officers CPE
2010                                      Appeals   $120,763       130      Hilton            Memphis, TN
       Campus (East)
       Exam Midwest Area                                                    Embassy Suites    Indianapolis,
2010                                      SB/SE     $120,415       96
       All Managers Meeting                                                 Hotel             IN
       New Hire Orientation (AOs) –
2010                                      Appeals   $119,004       116      Crown Plaza       Dallas, TX
       Session I
       EP Examinations 403(b)
2010                                      TE/GE     $118,874       90       Embassy Suites    Phoenix, AZ
       Training
                                                                            The Admiral
2010   M&F All Employees Meeting          LB&I      $117,546       87                         Baltimore, MD
                                                                            Fell Inn
2010   BSA Conference                       CI      $114,000       76       Benson Hotel      Portland, OR




                                                                                                 Page 29
                                         Review of the August 2010
                                   Small Business/Self-Employed Division’s
                                     Conference in Anaheim, California



                                                  Estimated
FY                 Name                Division     Cost      Attendees       Venue           Location
       SPEC National Disability
                                                                                            Jacksonville,
2010   Institute (NDI) Mayor            W&I       $113,857       111      City Library
                                                                                            FL
       Conference
                                                                          Crowne Plaza      Philadelphia,
2010   Appeals Officers Campus CPE     Appeals    $113,476       110
                                                                          West              PA
                                                                          Westin
2010   Annual Business Meeting          NHQ       $112,753       340      Arlington         Arlington, VA
                                                                          Gateway
                                                                          Dallas CDS
2010   Basic Trial Advocacy            Counsel    $112,729       53                         Dallas, TX
                                                                          Training Site
       Exam Gulf States Area
2010                                    SB/SE     $111,854       147      DoubleTree        Dallas, TX
       All Managers Meeting
       EO Exam All Managers
2010                                    TE/GE     $111,733       73       Embassy Suites    Chicago, IL
       Meeting
                                                                          Sea Palms
2010   IRS Training Class – Phase II     CI       $110,586       77                         St. Simons, GA
                                                                          Hotel
                                                                          Dallas CDS
2010   Basic Trial Advocacy            Counsel    $109,557       53                         Dallas, TX
                                                                          Training Site
                                                                          Tamarack
       Financial Management
2010                                    CFO       $109,165       98       Conference        Beckley, WV
       Customer Training Conference
                                                                          Center
       Exam South Atlantic
2010                                    SB/SE     $106,896       121      Marriott          Lake Mary, FL
       All Managers Meeting
                                                                          Wyndham
2010   Appeals Regional Meeting        Appeals    $105,567       85                         Chicago, IL
                                                                          Hotel
2010   EPTA CPE                         TE/GE     $104,573       68       Hotel Monaco      Seattle, WA
       IRS-CI/TEOAF Title 31/SAR                                          Omni
2010                                     CI       $102,501       137                        San Diego, CA
       Review Task Force                                                  Shoreham
                                                                          Wyndam
       Atlanta Accounts Management                                                          Jacksonville,
2010                                    W&I       $101,342       172      Riverwalk
       Leadership Conference                                                                FL
                                                                          Hotel
       Corporate New Hire                                                                   Anaheim, CA,
2010                                    SB/SE     $100,114       87       Hilton/Westin
       Orientation Sep 10 TCO                                                               and Atlanta, GA
                                                                          Wyndham
       North Atlantic Area
2010                                     CI       $100,000       82       Princeton         Princeton, NJ
       All Managers CPE
                                                                          Forrestal Hotel
                                                                          Twelve
2010   SPEC Leadership Conference       W&I        $99,947       70                         Atlanta, GA
                                                                          Centennial



                                                                                               Page 30
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



                                                   Estimated
FY                 Name                 Division     Cost      Attendees       Venue           Location
                                                                           New Carrollton
2010   Basic Trial Advocacy             Counsel     $99,092       53                         Lanham, MD
                                                                           Federal Bldg.
       Exam North Atlantic Area
2010                                     SB/SE      $98,877       112      Westin Hotel      Providence, RI
       All Managers Meeting
       CI National Counterterrorism                                        Shades of
2010                                      CI        $98,000       85                         Orlando, FL
       Seminar                                                             Green
2010   LMSB Managers Meeting            Counsel     $97,000       77       Embassy Suites    Tampa, FL
       Exam Western Area                                                   Heathman          Vancouver,
2010                                     SB/SE      $96,497       92
       All Managers Meeting                                                Lodge             WA
                                                                           Pittsburgh
2010   Personnel Security CPE            HCO        $95,831       75       Marriot City      Pittsburgh, PA
                                                                           Center
2010   M&P Leadership Conference         W&I        $95,820       62       Bolger Center     Potomac, MD
2010   BSP Conference                    AWSS       $95,693       84       DoubleTree        Orlando, FL
2010   Commissioner Leadership                                             Georgia Tech
                                         W&I        $94,249       120                        Atlanta, GA
       Conference                                                          Hotel
       Cross-Functional International                                                        Washington,
2010                                     TE/GE      $94,179       58       Park Hyatt
       Training                                                                              D.C.
                                                                           New Carrollton
2010   Training – EOps                   MITS       $93,665       73                         Lanham, MD
                                                                           Federal Bldg.
2010   PIPDS All Employees Meeting       PGLD       $90,804       65       Hyatt Regency     Savannah, GA
       SB/SE Collection Gulf States                                        Crowne Plaza
2010                                     SB/SE      $90,000       95                         Dallas, TX
       All Managers Meeting                                                Hotel
       Corporate New Hire
2010                                     SB/SE      $89,772       76       Westin Hotel      Dallas, TX
       Orientation – April 10 TCO
                                                                           Marriott Copley
2010   All Managers CPE                  HCO        $89,540       50                         Boston, MA
                                                                           Plaza
       Exam Technical Service
2010                                     SB/SE      $88,837       55       Hyatt Regency     Chicago, IL
       All Managers Meeting
                                                                           Westin
2010   All Managers Meeting              HCO        $88,824       50       Memphis Beale     Memphis, TN
                                                                           Hotel
                                                                           Hyatt Regency
2010   Appeals TG Business Meeting      Appeals     $88,419       70                         Baltimore, MD
                                                                           Baltimore
2010   PIO CPE                            CI        $87,483       67       Hotel Solamar     San Diego, CA
                                                                           DoubleTree
       Exam Central Area
2010                                     SB/SE      $87,089       70       Hotel and         Pittsburgh, PA
       All Managers Meeting
                                                                           Suites


                                                                                               Page 31
                                           Review of the August 2010
                                     Small Business/Self-Employed Division’s
                                       Conference in Anaheim, California



                                                   Estimated
FY                Name                  Division     Cost      Attendees       Venue            Location
       Newark Field Office FY10
2010                                       CI       $87,084       107      Thayer Hotel       West Point, NJ
       CPE
       Oakland Field Office FY10                                           DoubleTree         Rohnert Park,
2010                                       CI       $85,752       132
       CPE                                                                 Hotel              CA
                                                                           Georgetown         New
2010   CPE for IMD Community              RAS       $85,274       193
                                                                           University         Carrollton, MD
       Fraud Technical Advisors                                            St. Louis Union
2010                                     SB/SE      $84,424       153                         St. Louis, MO
       Revenue Agent International                                         Station Marriott
2010   CLD Administrative CPE            SB/SE      $83,276       55       Hyatt              Baltimore, MD
       EP Examinations Programs
2010                                     TE/GE      $81,842       60       Nashville CDS      Nashville, TN
       and Review CPE
                                                                           IRS Appeals        Washington,
2010   Technical Advisors CPE            Appeals    $81,350       61
                                                                           Office             D.C.
                                                                           Hilton Charlotte
       CI Refund Crimes
2010                                       CI       $79,675       67       University         Charlotte, NC
       All Managers Meeting
                                                                           Place
                                                                           Jacksonville
                                                                                              Jacksonville,
2010   Advanced Trial Advocacy           Counsel    $77,679       55       CDS Training
                                                                                              FL
                                                                           Site
                                                                           Holiday Inn –
2010   Area 10 Business Meeting          Appeals    $77,175       126                         Fresno, CA
                                                                           Airport
       Account Managers FY11
2010                                      W&I       $77,072       201      Marriott South     Austin, TX
       Leadership Conference
       FA Area 4 Leadership
2010                                      W&I       $74,588       53       Omni               Houston, TX
       Conference
                                                                                              Jacksonville,
2010   EP MAP Training                   TE/GE      $74,276       56       IRS Office
                                                                                              FL
                                                                           St. Louis Union
2010   FBSA Secretary CPE 2010           SB/SE      $73,981       54                          St Louis, MO
                                                                           Station Marriott
2010   All Managers Meeting               CFO       $72,195       54       Airlie Center      Warrenton, VA
       Account Managers Fresno
                                                                           Courtyard
2010   Directorate Leadership             W&I       $71,959       87                          Portland, OR
                                                                           Marriott
       Conference
                                                                                              East Lansing,
2010   Detroit Field Office FY10 CPE       CI       $67,338       95       Marriott
                                                                                              MI
                                                                           Chet Holifield
                                                                                              Philadelphia,
2010   EP Conflict Management            TE/GE      $66,778       57       Federal
                                                                                              PA
                                                                           Building



                                                                                                 Page 32
                                         Review of the August 2010
                                   Small Business/Self-Employed Division’s
                                     Conference in Anaheim, California



                                                   Estimated
FY                 Name                 Division     Cost      Attendees       Venue           Location
       CCS Filing and Payment
2010                                     SB/SE      $66,000       55       Hyatt Regency     St. Louis, MO
       Compliance
       FA Area 3 Leadership
2010                                     W&I        $65,962       53       Hyatt             Atlanta, GA
       Conference
       W&I Compliance Leadership                                           Georgia Tech
2010                                     W&I        $64,805       60                         Atlanta, GA
       Conference                                                          Hotel
2010   Reasonable Accommodations         AWSS       $63,961       50       DoubleTree        Dallas, TX
       National Research Project
2010                                     TE/GE      $63,812       58       Nashville CDS     Nashville, TN
       Training
       FA Area 2 Leadership
2010                                     W&I        $63,548       56       Gateway Center    Cincinnati, OH
       Conference
2010   EPSS Leadership Conference        W&I        $62,193       60       Renaissance       Atlanta, GA
                                                                           Marriott
       SB:SP:EG Estate and Gift Tax
2010                                     SB/SE      $61,227       55       Waterside Hotel   Tampa, FL
       Managers CPE 2010
                                                                           and Marina
       Andover Compliance Service                                          Nashua
2010                                     W&I        $59,082       75                         Nashua, NH
       Leadership Conference                                               Radisson Castle
                                                                           New Carrolton
                                                                                             Kansas City,
2010   CPE for IMD Community             RAS        $56,984       144      Federal
                                                                                             KS
                                                                           Building
       Compliance FY10 Leadership                                          Grand
2010                                     W&I        $53,580       140                        Fresno, CA
       Conference                                                          Occasions
       FA Area 1 Leadership                                                Andover
2010                                     W&I        $52,421       52                         Andover, MA
       Conference                                                          Campus
       SB/SE Collection Central Area
2010                                     SB/SE      $48,000       63       Fairfield Inn     Weirton, WV
       All Managers Meeting
       Accounts Management
2010                                     W&I        $47,849       86       The W Hotel       Atlanta, GA
       Leadership Conference
       Accounts Management                                                 Atlantis Marine
2010                                     W&I        $46,230       170                        Riverhead, NY
       Leadership CPE                                                      World
                                                                           Wyndham
                                                                                             Glenn Allen,
2010   All Employees CPE                 HCO        $41,006       50       Virginia
                                                                                             WV
                                                                           Crossings
       FY10 IRS Ogden Accounts
2010   Management Center All             W&I        $36,197       121      Marriott          Ogden, UT
       Managers CPE Speed of Trust
                                                                           Little America    Salt Lake City,
2010   SP Joint Leadership Conference    W&I        $27,568       64
                                                                           Hotel             UT



                                                                                                Page 33
                                            Review of the August 2010
                                      Small Business/Self-Employed Division’s
                                        Conference in Anaheim, California



                                                    Estimated
FY                 Name                  Division     Cost      Attendees       Venue            Location
       All Managers FY 10
2010                                       W&I       $22,319       118      Marriott           Ogden, UT
       Leadership Conference
       Accounts Management
2010                                       W&I       $22,160       90       Hilton Hotel       Memphis, TN
       Leadership Conference
       Kansas City Compliance                                               John Knox          Lee’s Summit,
2010                                       W&I       $20,496       200
       Leadership Conference                                                Village            MO
       Compliance Leadership
2010                                       W&I       $17,730       139      Austin Marriot     Austin, TX
       Conference
                                                                            Memphis
2010   Accounts Management CPE             W&I       $16,693       90                          Memphis, TN
                                                                            Campus
       Atlanta Field Compliance
2010   Services Leadership                 W&I       $16,274       139      Twelve Hotel       Atlanta, GA
       Conference
                                                                            Tusculum
       Accounts Management
2010                                       W&I       $2,720        200      Church of          Nashville, TN
       Training Day
                                                                            Christ
                                                                            Marriott
       Estate and Gift Tax Attorney
2011                                      SB/SE     $480,638       332      Waterside Hotel    Tampa, FL
       FY 11 CPE
                                                                            and Marina
                                                                            Gaylord            Washington,
2011   IRS Nationwide Tax Forums           C&L      $261,721       277
                                                                            National Harbor    D.C.
       Taxpayer Advocacy Panel                                                                 Washington,
2011                                       TAS      $260,600       136      Capital Hilton
       Annual Meeting                                                                          D.C.
                                                                                               Washington,
2011   TAS Leadership Conference           TAS      $258,005       113      Fairmont Hotel
                                                                                               D.C.
       Congressional Affairs Program                                                           Washington,
2011                                       TAS      $234,793       121      Fairmont Hotel
       Conference                                                                              D.C.
       Fraud Technical Advisors                                             Marriott
2011                                      SB/SE     $211,312       78                          San Diego, CA
       Phase II (course delivery)                                           Mission Valley
2011   IRS Nationwide Tax Forums           C&L      $205,975       218      Caesar’s Palace    Las Vegas, NV
2011   Annual Asset Forfeiture CPE          CI      $204,925       130      W Scottsdale       Scottsdale, AZ
       Fraud Emerging International                                         St. Louis Union
2011                                      SB/SE     $186,730       155                         St. Louis, MO
       Issues                                                               Station Marriott
                                                                            Marriott
2011   All Managers Meeting – EUES        MITS      $180,969       111                         Dallas, TX
                                                                            Quorum
                                                                            Hyatt Regency
2011   All Managers Meeting                HCO      $179,044       145                         Baltimore, MD
                                                                            Baltimore
2011   IRS Nationwide Tax Forums           C&L      $178,575       189      Marriott           Atlanta, GA


                                                                                                 Page 34
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



                                                  Estimated
FY                 Name                Division     Cost      Attendees       Venue            Location
2011   IRS Nationwide Tax Forums         C&L      $167,237       177      Hilton             Dallas, TX
                                                                          DoubleTree
2011   New Hire Orientation (AOs)       Appeals   $161,731       144                         Dallas, TX
                                                                          Hotel
                                                                          San Jose
2011   IRS Nationwide Tax Forums         C&L      $159,678       169      Convention         San Jose, CA
                                                                          Center
2011   IRS Nationwide Tax Forums         C&L      $155,899       165      Hilton             Orlando, FL
2011   BSA Conference                     CI      $153,000       102      Drake Hotel        Chicago, IL
2011   CI Senior Leadership Meeting       CI      $147,831       119      Sheraton Hotel     McLean, VA
       SB/SE Collection AIQ                                               Hilton             Indianapolis,
2011                                    SB/SE     $141,381       135
       All Managers Meeting                                               Indianapolis       IN
                                                                          Wyndam
2011   All Managers CPE                 AWSS      $141,109       72       Virginia           Richmond, VA
                                                                          Crossing Hotel
       Fuel Compliance Agent (FCA)                                        Brentwood
2011                                    SB/SE     $134,106       59                          Brentwood, TN
       Phase III                                                          Training Center
                                                                          Baltimore
2011   All Managers Meeting             AWSS      $127,168       96                          Baltimore, MD
                                                                          Marriott
                                                                          Park Plaza
2011   Senior Managers Meeting           HCO      $117,283       70       Hotel and          Boston, MA
                                                                          Tower
       CI Questionable Refund                                                                Ft. Lauderdale,
2011                                      CI      $109,759       84       Gallery One
       Program and RPP Meeting                                                               FL
2011   All Employees CPE                 C&L      $100,835       72       Intercontinental   Chicago, IL
                                                                          Tampa
2011   NATIA Conference                   CI       $99,099       54                          Tampa, FL
                                                                          Convention Ctr.
                                                                          Dallas CDS
2011   Basic Trial Advocacy             Counsel    $97,561       53                          Dallas, TX
                                                                          Training Site
       New Hire Orientation                                               DoubleTree
2011                                    Appeals    $97,279       122                         Dallas, TX
       (Settlement Officers)                                              Hotel
       CI National Counterterrorism                                       Shades of
2011                                      CI       $91,311       77                          Orlando, FL
       Seminar                                                            Green
                                                                          Dallas CDS
2011   Basic Trial Advocacy             Counsel    $90,057       53                          Dallas, TX
                                                                          Training Site
                                                                          New York New
2011   Leadership Conference            AWSS       $90,036       63                          Las Vegas, NV
                                                                          York Hotel
       SPEC National Disability
2011                                     W&I       $86,724       72       Federal Reserve    Boston, MA
       Institute Mayor Conference


                                                                                                Page 35
                                            Review of the August 2010
                                      Small Business/Self-Employed Division’s
                                        Conference in Anaheim, California



                                                    Estimated
FY                 Name                  Division     Cost      Attendees       Venue            Location
       CIMIS Equipment Coordinator                                          Westin Canal       New Orleans,
2011                                        CI       $83,000       58
       CPE                                                                  Place Hotel        LA
       Domestic Terrorism and
2011   Frivolous Filer Training             CI       $79,447       75       Sheraton Hotel     Chicago, IL
       Conference
                                                                            IRS Main           Washington,
2011   New Attorney Orientation           Counsel    $77,063       85
                                                                            Building           D.C.
2011   EO International Training          TE/GE      $76,872       62       Nashville CDS      Nashville, TN
       Coordinated Issues Cases                                             Brentwood
2011                                      SB/SE      $76,137       54                          Brentwood, TN
       Excise Cases                                                         Training Center
                                                                            Chet Holified
                                                                                               Laguna Niguel,
2011   Asset Forfeiture Basic Training      CI       $76,117       66       Federal
                                                                                               CA
                                                                            Building
                                                                            DoubleTree by
       Issue Practice Group (CAM
2011                                      LB&I       $71,457       65       Hilton,            Atlanta, GA
       and DCE)
                                                                            Buckhead
                                                                            DoubleTree
       SB/SE Collection Midwest
2011                                      SB/SE      $71,435       80       Milwaukee City     Milwaukee, WI
       Area All Managers Meeting
                                                                            Center
                                                                            Intercontinental
2011   PIPDS All Employees Meeting        PGLD       $68,611       72                          Baltimore, MD
                                                                            Harbor Court
       SPEC National Disability
2011   Institute (NDI) Mayor               W&I       $62,206       111      Federal Reserve    Chicago, IL
       Conference
       EP Voluntary Compliance                                              DoubleTree
2011                                      TE/GE      $60,712       87                          Austin, TX
       Workshop                                                             Hotel
       CI Asset Forfeiture Training                                                            Kansas City,
2011                                        CI       $27,180       78       Marriott Hotel
       Conference                                                                              MO
       Charlotte Field Office Asset
2011   Forfeiture Training/Town Hall        CI       $22,804       85       Embassy Suites     Charlotte, NC
       Meeting
       Accounts Management FY11
       Leadership Conference
2011                                       W&I       $21,515       126      Marriott           Ogden, UT
       Continuous Improvement
       Starts With One
                                                                            Oxford
       Asset Forfeiture Conference –
2011                                        CI       $19,443       61       Conference         Oxford, MS
       New Orleans Field Office
                                                                            Center
       Cincinnati SP Leadership
2011                                       W&I        $570         125      Gateway Center     Covington, KY
       Conference

                                                                                                 Page 36
                                         Review of the August 2010
                                   Small Business/Self-Employed Division’s
                                     Conference in Anaheim, California



                                                  Estimated
FY                Name                 Division     Cost       Attendees       Venue           Location
                                                                           Video             Video
2011   M&P Leadership Conference        W&I         $372          65
                                                                           Conference        Conference
2012   Flow Through Entity              SB/SE     $1,778,194      317      IRS Space         Various Cities
2012   Flow Through Entity              SB/SE     $1,044,259      211      IRS Space         Various Cities
                                                                           Earle Cabell
       EP Examinations Phase III
2012                                    TE/GE     $218,871        61       Federal           Dallas, TX
       New Hire Training
                                                                           Building
       Congressional Affairs Program                                                         Washington,
2012                                     TAS      $200,903        107      Fairmont Hotel
       Conference                                                                            D.C.
2012   TAS Leadership Conference         TAS      $196,000        115      Hyatt Arlington   Arlington, VA
                                                                           DoubleTree
2012   New Hire Orientation for FY13   Appeals    $156,600        115                        Dallas, TX
                                                                           Hotel
2012   National Tax Forum               C&L       $146,358        81       Hilton            New York, NY
2012   National Tax Forum               C&L       $133,648        89       Caesar’s Palace   Las Vegas, NV
                                                                           Omni
                                                                                             San Antonio,
2012   CI Refund Crimes CPE              CI       $133,415        96       La Mansion
                                                                                             TX
                                                                           Del Rio Hotel
                                                                           Hyatt
2012   National Tax Forum               C&L       $124,445        79       McCormick         Chicago, IL
                                                                           Place
2012   National Tax Forum               C&L       $116,752        82       Hilton            Orlando, FL
2012   National Tax Forum               C&L       $106,220        78       Marriott          Atlanta, GA
                                                                           Town and
2012   National Tax Forum               C&L       $102,933        78                         San Diego, CA
                                                                           Country
                                                                           King and Prince
2012   Advanced Training                 CI        $99,586        70                         St. Simons, GA
                                                                           Hotel
                                                                           IRS CDS
2012   PFTG QA Consistency Forum        LB&I       $75,000        50       Training          Pittsburgh, PA
                                                                           Facility
                                                                                             Washington,
2012   LITC Grantee Conference          TAS        $72,563        60       Capitol Hilton
                                                                                             D.C.
                                                                           Chet Holifield
                                                                                             Laguna Niguel,
2012   Fiduciary Abusive Trust          SB/SE      $61,684        50       Federal
                                                                                             CA
                                                                           Building
                                                                           IRS Main          Washington,
2012   New Attorney Orientation        Counsel     $53,362        103
                                                                           Building          D.C.
       Fresno SP Leadership
2012                                    W&I        $18,379        190      Golden Palace     Fresno, CA
       Conference


                                                                                               Page 37
                                             Review of the August 2010
                                       Small Business/Self-Employed Division’s
                                         Conference in Anaheim, California



                                                         Estimated
  FY                   Name                  Division      Cost         Attendees          Venue            Location
          Austin SP Leadership                                                        Wyndham
  2012                                         W&I          $8,366          180                          Austin, TX
          Conference                                                                  Hotel
          Natural Resources and                                                       Ronald Deaton
                                                                                                         Los Angeles,
  2012    Construction Industry DFO –          LB&I         $5,000          175       Civic
                                                                                                         CA
          West Town Hall Meeting                                                      Auditorium
                                                                                      Davis
          Ogden SP Leadership
  2012                                         W&I          $3,600          140       Conference         Layton, UT
          Conference
                                                                                      Center
          Kansas City SP Leadership                                                   Kansas City        Kansas City,
  2012                                         W&I           $669           160
          Conference                                                                  Campus             MO
          Compliance Leadership
  2012                                         W&I            $0            110       Austin Campus      Austin, TX
          Conference

Fiscal Year 2010 Estimated Cost                          $37,567,680

Fiscal Year 2011 Estimated Cost                          $ 6,207,312

Fiscal Year 2012 Estimated Cost                          $ 4,856,807

Grand Total Estimated Cost for 225 Conferences                          $48,631,799
Source: Chief Financial Officer, November 2012.2




   2
    The Treasury Inspector General for Tax Administration has reviewed only the SB/SE Division Leadership
   Conference described in this report and has not performed any detailed analyses of the other conferences held during
   FYs 2010 through 2012.

                                                                                                            Page 38
                     Review of the August 2010
               Small Business/Self-Employed Division’s
                 Conference in Anaheim, California



                                                                  Appendix V

Legend for Abbreviations Listed in Appendix IV

 Acronym   Definition
 AIQ       Advisory & Insolvency Quality
 AO        Appeals Officer
 AWSS      Agency-Wide Shared Services
 BMO       Business Modernization Office
 BSA       Bank Secrecy Act
 BSP       Business System Planning
 C&L       Communication & Liaison
 CAM       Change in Accounting Method
 CCS       Campus Compliance Services
 CFO       Chief Financial Officer
 CI        Criminal Investigation
 CIMIS     Criminal Investigation Management Information System
 CT        Criminal Tax
 DCE       Detection Controlled Estimate
 DFO       Director of Field Operations
 EG        Estate and Gift Tax
 EO        Exempt Organizations
 EOps      Enterprise Operations
 EP        Employee Plans
 EPSS      Electronic Products & Services Support
 EPTA      Employee Plans Team Audit
 ERCS      Examination Return Control System
 EUES      End User Equipment & Services
 FA        Field Assistance
 FM        Finance and Management
 FO        Field Office
 GE        Government Entity
 GLS       General Legal Services

                                                                      Page 39
                                  Review of the August 2010
                            Small Business/Self-Employed Division’s
                              Conference in Anaheim, California



   Acronym              Definition
   HCO                  Human Capital Office
   IMD                  Internal Management Documents
   IT                   Information Technology
   LB&I                 Large Business & International
   LITC                 Low Income Taxpayer Clinic
   LMSB                 Large and Midsize Business
   M&F                  Management and Finance
   M&P                  Media & Publications
   MITS                 Modernization & Information Technology Services
   NATIA                National Technical Investigators’ Association
   NHQ                  National Headquarters
   PFTG                 Prefiling Technical Guidance
   PGLD                 Privacy, Government Liaison, & Disclosure
   PIO                  Public Information Officer
   PIPDS                Privacy, Information Protection, and Data Security
   QA                   Quality Assurance
   RAS                  Research Analysis Statistics
   RPP                  Return Preparer Program
   S&F                  Strategy and Finance
   SAR                  Suspicious Activity Report
   SB                   Small Business
   SCR                  Senior Commissioner Representative
   SP                   Submission Processing
   SPEC                 Stakeholder Partnership, Education, & Communication
   TAS                  Taxpayer Advocate Service
   TCO                  Tax Compliance Officer
   TE/GE                Tax Exempt/Government Entities
   TEOAF                Treasury Executive Officer of Asset Forfeiture
   W&I                  Wage & Investment
Source: IRS Intranet.




                                                                              Page 40
                                       Review of the August 2010
                                 Small Business/Self-Employed Division’s
                                   Conference in Anaheim, California



                                                                                  Appendix VI

            Internal Revenue Service Conferences
         Held During Fiscal Years 2010 Through 2012
         Ranked by Highest Average Cost Per Event

                                                                                     Average
                                                        Number                        Cost
               IRS Operating Division                   of Events   Total Cost      Per Event
Taxpayer Advocate Service                                  10        $4,922,098      $492,210
SB/SE                                                      44       $19,718,519      $448,148
Large Business and International                            7        $1,958,672      $279,810
Chief Counsel                                              16        $3,545,466      $221,592
Appeals                                                    16        $3,368,085      $210,505
Modernization and Information Technology Services          6         $1,100,768      $183,461
Agency-Wide Shared Services                                11        $1,948,844      $177,168
Communication and Liaison                                  19        $3,254,266      $171,277
Tax Exempt and Government Entities                         14        $2,181,806      $155,843
National Headquarters                                       1         $112,753       $112,753
Criminal Investigation                                     29        $3,173,861      $109,443
Human Capital Office                                       6          $611,528       $101,921
Research, Analysis, and Statistics                          3         $283,151        $94,384
Chief Financial Officer                                     2         $181,360        $90,680
Office of Privacy, Government Liaison, and Disclosure       2         $159,415        $79,708
Wage and Investment                                        39        $2,111,208       $54,134

Totals                                                    225       $48,631,800      $216,141
Source: Chief Financial Officer, November 2012.


                                                                                       Page 41
                              Review of the August 2010
                        Small Business/Self-Employed Division’s
                          Conference in Anaheim, California



                                                                 Appendix VII

                      Summary of Costs
                for the Anaheim Conference

  Category                                                Cost
  Travel Including Lodging                              $3,754,578
  Guest Speakers                                         $135,350
  Information Corridor Travel and Supplies                $71,381
  Videos                                                  $50,187
  Miscellaneous/General Printing                          $28,138
  Automated Response Tools                                $24,828
  Brief Bags                                              $15,699
  Folders                                                 $12,763
  Portfolios With Imprinted Logos                         $10,209
  Lanyards and Badge Holders                               $6,060
  Commissioner Awards Plaques                              $4,500
  Closed Captioning                                        $4,496
  Books and Bookmarks                                      $3,076
  Journals                                                 $2,449
  E-Ticket Card Decks                                      $2,072
  Sign Language                                            $1,803
  Engraved Travel Mugs and Clocks                          $1,534
  Miscellaneous Supplies                                   $1,169
  Imprinted Sticky Note Pads                               $1,165
  Sleeves for Puzzle Pieces                                  $901
  Digital Video Discs                                        $825
  Total Costs                                           $4,133,183
Source: SB/SE Division management. Costs are rounded.

                                                                       Page 42
                                          Review of the August 2010
                                    Small Business/Self-Employed Division’s
                                      Conference in Anaheim, California



                                                                                         Appendix VIII

                           Guest Speakers Procured
                          for the Anaheim Conference

Guest Speaker                              Cost        Service Provided                   Topic
                                                         Keynote
Frans Johannson                           $27,500                                 The Medici Effect
                                                         Two Presentations
                                                         Keynote
Erik Wahl                                 $17,000                                 The Art of Vision
                                                         Two Presentations
                                                         Four 90-Minute           Strategies for Increasing
Shawn Anchor                              $11,430
                                                         Workshops                Employee Engagement
                                                         Four 90-Minute
Steve Robbins                             $10,822                                 Unintentional Intolerance
                                                         Workshops
                                                         Four 90-Minute           Courageous Decision
John McCann                                $8,983
                                                         Workshops                Making & Rankism
                                                         Four 90-Minute           How Do I Become a
Antony Bell                                $8,917
                                                         Workshops                Great Leader?
                                                         Four 90-Minute           The Manager’s Role in
Dr. Timothy Clark                          $8,802
                                                         Workshops                Implementing Change
                                                         Four 90-Minute
Dr. Evan Offstein and Jay Morwick          $8,392                                 Making Telework Work
                                                         Workshops
                                                         Four 90-Minute
Sharon Ellison                             $7,000                                 Talk Matters
                                                         Workshops
                                                         Four 90-Minute
Dr. Pete Hammett                           $6,406                                 Crisis Leadership
                                                         Workshops
                                                         Four 90-Minute           Leading With Quiet
Dr. Jennifer Kahnweller                    $5,512
                                                         Workshops                Confidence
                                                         Four 90-Minute
John Wukovits                              $4,864                                 Eisenhower’s Leadership
                                                         Workshops
                                                         Four 90-Minute
Mark Nishan                                $3,500                                 Positive Leadership
                                                         Workshops
                                                         Four 90-Minute           Mindfulness: A Pathway
Dr. Mark Thurston                          $3,222
                                                         Workshops                to Leadership
                                                         Four 90-Minute           Root Canal or Public
Vincent Stovall                            $3,000
                                                         Workshops                Speaking?

Total Costs for Guest Speakers           $135,350
Source: IRS sole-source justification documents; Standard Forms 182, Request, Authorization, Agreement &
Certification of Training; and SB/SE Division management. Total costs are rounded up.

                                                                                                      Page 43
          Review of the August 2010
    Small Business/Self-Employed Division’s
      Conference in Anaheim, California



                                          Appendix IX

Anaheim Conference Agenda




                                               Page 44
                                      Review of the August 2010
                                Small Business/Self-Employed Division’s
                                  Conference in Anaheim, California




                       Anaheim Conference Agenda




Source: SB/SE Division management.

                                                                          Page 45
                                    Review of the August 2010
                              Small Business/Self-Employed Division’s
                                Conference in Anaheim, California



                                                                        Appendix X

                  Anaheim Conference Workshops
                       on August 25, 2010

Workshop Title                                     Speaker               Times

                                                                    8:00, 10:00,
How Do I Become a Great Leader?                  Antony Bell
                                                                     1:00, 3:00
                                                                    8:00, 10:00,
The Manager’s Role in Implementing Change         Tim Clark
                                                                     1:00, 3:00
                                                Evan Offstein,      8:00, 10:00,
Making Telework Work
                                                Jay Morwich          1:00, 3:00
Unintentional Intolerance: Don’t Be So                              8:00, 10:00,
                                                Steve Robbins
N.I.C.E                                                              1:00, 3:00
Strategies for Increasing Employee                                  8:00, 10:00,
                                                 Shawn Achor
Engagement                                                           1:00, 3:00
Leading With Quiet Confidence:                                      8:00, 10:00,
                                              Jennifer Kahnweiler
The Introverted Leader                                               1:00, 3:00
Mindfulness: A Pathway to Leadership                                8:00, 10:00,
                                                Mark Thurston
Effectiveness                                                        1:00, 3:00
                                                                    8:00, 10:00,
Talk Matters! Authentic Conversations           Sharon Ellison
                                                                     1:00, 3:00
Root Canal or Public Speaking – I’ll Take                           8:00, 10:00,
                                                Vincent Stovall
the Root Canal                                                       1:00, 3:00
Political Savvy: How Not to Shoot Yourself                          8:00, 10:00,
                                                 IRS Speakers
in the Foot                                                          1:00, 3:00
                                                                    8:00, 10:00,
Why Doesn’t Somebody Do Something?              Pete Hammett
                                                                     1:00, 3:00
                                                                    8:00, 10:00,
Creative Employee Engagement                     IRS Speakers
                                                                     1:00, 3:00
                                                                    8:00, 10:00,
Flash Mentoring                                  IRS Speakers
                                                                     1:00, 3:00

                                                                             Page 46
                                      Review of the August 2010
                                Small Business/Self-Employed Division’s
                                  Conference in Anaheim, California



Workshop Title                                      Speaker                Times

Positive Leadership – Strategies for                                  8:00, 10:00,
                                                  Mark Nishan
Extraordinary Performance                                              1:00, 3:00
                                                                      8:00, 10:00,
Ike                                               John Wukovitz
                                                                       1:00, 3:00
Connecting the Dots: Having a
                                                  IRS Speakers            1:00, 3:00
Customer Focus
                                                                      8:00, 10:00,
Writing Performance Reviews                       IRS Speakers
                                                                       1:00, 3:00
Is this Reasonable? Meeting the Needs                                 8:00, 10:00,
                                                  IRS Speakers
of Your Employees                                                      1:00, 3:00
                                                                      8:00, 10:00,
Going Beyond, Beyond                              IRS Speakers
                                                                       1:00, 3:00
                                                                      8:00, 10:00,
What’s Hot, What’s New, What’s Going On           IRS Speakers
                                                                       1:00, 3:00
Compliance Briefing: Updates on Current                               8:00, 10:00,
                                                  IRS Speakers
Tax Law and IRS Initiatives                                            1:00, 3:00
                                                                      8:00, 10:00,
Strategic Thinking                                IRS Speakers
                                                                       1:00, 3:00
Rankism                                           John McCann         8:00, 10:00
Ethical Fitness                                   John McCann             1:00, 3:00
Source: SB/SE Division management.




                                                                                 Page 47
                 Review of the August 2010
           Small Business/Self-Employed Division’s
             Conference in Anaheim, California



                                                 Appendix XI

Management’s Response to the Draft Report




                                                      Page 48
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 49
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 50
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 51
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 52
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 53
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 54
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 55
      Review of the August 2010
Small Business/Self-Employed Division’s
  Conference in Anaheim, California




                                          Page 56
